      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General


                                                                        Washington, D.C. 20201




October 29, 2010

TO:           Donald M. Berwick, M.D.
              Administrator
              Centers for Medicare & Medicaid Services

              /Joe J. Green/ for
FROM:         George M. Reeb
              Acting Deputy Inspector General for Audit Services


SUBJECT:      Review of Personal Care Services Provided by Tri-State Home Health and
              Equipment Services, Inc., in the District of Columbia (A-03-08-00207)


Attached, for your information, is an advance copy of our final report on personal care services
provided by Tri-State Home Health and Equipment Services, Inc., in the District of Columbia.
We will issue this report to the District of Columbia’s Department of Health Care Finance within
5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov
or Stephen Virbitsky, Regional Inspector General for Audit Services, Region III, at
(215) 861-4470 or through email at Stephen.Virbitsky@oig.hhs.gov. Please refer to report
number A-03-08-00207.


Attachment
   DEPARTMENT OF HEALTH & HUMAN SERVICES                                 OFFICE OF INSPECTOR GENERAL

                                                                         Office of Audit Services, Region III
                                                                         Public Ledger Building, Suite 316
                                                                         150 S. Independence Mall West
                                                                         Philadelphia, PA 19106-3499

November 4, 2010

Report Number: A-03-08-00207

Julie Hudman, Ph.D.
Director
Department of Health Care Finance
825 North Capitol Street NE, Suite 500
Washington, DC 20001

Dear Dr. Hudman:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector General
(OIG), final report entitled Review of Personal Care Services Provided by Tri-State Home Health
and Equipment Services, Inc., in the District of Columbia. We will forward a copy of this report to
the HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported. We
request that you respond to this official within 30 days from the date of this letter. Your response
should present any comments or additional information that you believe may have a bearing on the
final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly available
reports on the OIG Web site. Accordingly, this report will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or contact
Robert Baiocco, Audit Manager, at (215) 861-4486 or through email at
Robert.Baiocco@oig.hhs.gov. Please refer to report number A-03-08-00207 in all correspondence.


                                               Sincerely,



                                               /Stephen Virbitsky/
                                               Regional Inspector General
                                                for Audit Services

Enclosure
Page 2 – Julie Hudman, Ph.D.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
   Department of Health & Human Services
              OFFICE OF
         INSPECTOR GENERAL




 REVIEW OF PERSONAL CARE SERVICES
PROVIDED BY TRI-STATE HOME HEALTH
AND EQUIPMENT SERVICES, INC., IN THE
       DISTRICT OF COLUMBIA




                         Daniel R. Levinson
                          Inspector General

                          November 2010
                          A-03-08-00207
                    Office of Inspector General
                                    http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy, efficiency,
and effectiveness of departmental programs. To promote impact, OEI reports also present
practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With investigators
working in all 50 States and the District of Columbia, OI utilizes its resources by actively
coordinating with the Department of Justice and other Federal, State, and local law enforcement
authorities. The investigative efforts of OI often lead to criminal convictions, administrative
sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In the District of Columbia (District), the
Department of Health Care Finance (State agency) administers the Medicaid program.

Pursuant to 42 CFR § 440.167, personal care services are generally furnished to beneficiaries in
their homes and may not be provided in an institutional setting. In the District, personal care
services are prescribed by a physician or advanced practice registered nurse in accordance with a
plan of care and provided by qualified personal care aides (PCA) under the supervision of a
registered nurse.

Attachment 3.1-A of the District’s Medicaid State plan authorizes personal care services, which
provide assistance with activities of daily living including bathing, grooming, and eating. During
our audit period, the State plan limited personal care services to no more than 8 hours per day
and 1,040 hours during any 12-month period. These limits could be exceeded if preauthorized
by the State agency. The District also provides personal care services through a section 1915(c)
waiver, Home and Community-Based Waiver for the Elderly and Individuals With Physical
Disabilities (waiver). The waiver allows up to 16 hours of services per day.

Tri-State Home Health and Equipment Services, Inc. (Tri-State), a residential service agency,
received $16,538,233 ($11,576,763 Federal share) in Medicaid payments for personal care
services provided to 518 beneficiaries in the District from July 1, 2006, through September 30,
2007. During this period, Tri-State was the District’s largest provider of personal care services.

OBJECTIVES

Our objectives were to determine whether the State agency:

   •   paid Tri-State only for personal care service claims that complied with the State plan or
       waiver requirements for allowable hours of service and only for services actually
       provided and

   •   ensured that PCAs met District qualification requirements.

SUMMARY OF FINDINGS

The State agency paid Tri-State for personal care services that did not always comply with the
State plan or waiver requirements for allowable hours of service and for personal care services

                                                 i
that were not always provided. Payments for services to 326 beneficiaries were sufficiently
documented, including services for all the 155 beneficiaries for whom Tri-State requested and
received approval under the State agency’s waiver. However, the State agency made payments,
totaling $1,595,422 ($1,116,796 Federal share), for unallowable services to 148 beneficiaries:

   •   $1,588,315 ($1,111,821 Federal share) on behalf of 134 beneficiaries for whom Tri-State
       claimed hours of service in excess of the State plan limit but did not provide
       documentation that it requested or received the required authorization for the extended
       service and

   •   $7,107 ($4,975 Federal share) on behalf of 14 beneficiaries for whom Tri-State claimed
       hours of services that were not provided.

We set aside for CMS’s adjudication $1,153,897 ($807,728 Federal share) paid on behalf of an
additional 44 beneficiaries for whom Tri-State claimed hours of service under the waiver.
Tri-State documented that it had submitted requests for waiver services for these beneficiaries
but did not have evidence to support that it had received preauthorization for services under the
waiver. We also determined that the State agency did not ensure that all Tri-State’s PCAs met
the District’s qualification requirements. Of the 110 PCAs who provided services to the 86
beneficiaries we reviewed for quality of care, 13 did not meet one or more of the District’s
qualification requirements.

These errors occurred because the State agency lacked sufficient controls to identify and review
claims that exceeded authorized limits and because Tri-State lacked sufficient controls to ensure
that it obtained and documented receipt of State agency authorizations needed to justify
Tri-State’s claims.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,111,821 (Federal share) for claims in excess of State plan limits paid without
       documentation of the required authorization,

   •   refund $4,975 (Federal share) for claims paid for services that were not provided,

   •   work with CMS to determine the allowability of $807,728 (Federal share) paid for waiver
       claims for which preauthorization of services was not adequately supported,

   •   implement prepayment controls to monitor personal care services claims for compliance
       with Federal and District requirements, and

   •   provide more effective monitoring of PCA compliance with qualification requirements.




                                                ii
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and described the action it has taken, or plans to take, to address them. The State agency said
that it had implemented prepayment controls and PCA monitoring procedures. As part of its
PCA monitoring, the State agency also requested documentation of our interviews with Tri-State
clients.

The State agency’s comments are presented in their entirety as the Appendix.




                                              iii
                                                   TABLE OF CONTENTS
                                                                                                                              Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
            The Medicaid Program ......................................................................................1
            The District’s Personal Care Services Program .................................................1
            Federal Requirements Related to Personal Care Services .................................1
            State Plan Requirements Related to Personal Care Services .............................2
            The District’s Home and Community-Based Waiver for the Elderly and
             Individuals With Physical Disabilities .............................................................2
            Tri-State Home Health and Equipment Services, Inc. .......................................3

          OBJECTIVES, SCOPE, AND METHODOLOGY .................................................3
            Objectives ..........................................................................................................3
            Scope .................................................................................................................3
            Methodology ......................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................4

          FEDERAL AND STATE AGENCY DOCUMENTATION
           REQUIREMENTS .................................................................................................5

          PRIOR AUTHORIZATION NOT DOCUMENTED..............................................6

          SERVICES NOT PERFORMED ............................................................................6

          APPROVAL OF WAIVER SERVICES NOT DOCUMENTED ...........................7

          CAUSE OF UNALLOWABLE CLAIMS...............................................................7

          PERSONAL CARE AIDES LACKED QUALIFICATIONS .................................7

          RECOMMENDATIONS .........................................................................................8

          STATE AGENCY COMMENTS ............................................................................9

OTHER MATTERS: BENEFICIARY-IDENTIFIED PROBLEMS
 WITH PERSONAL CARE SERVICES ........................................................................9

APPENDIX

          STATE AGENCY COMMENTS



                                                                     iv
                                       INTRODUCTION

BACKGROUND

The Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In the District of Columbia (District), the
Department of Health Care Finance (State agency) administers the Medicaid program.

The District’s Personal Care Services Program

The District’s personal care services program is operated by the State agency’s Office of
Disabilities and Aging, which is responsible for authorizing personal care services and
monitoring the personal care services program. Personal care services include, but are
not limited to, bathing, grooming, and assistance with toileting or bed pan use; meal
preparation in accordance with dietary guidelines and assistance with eating; and
shopping for items related to promoting the patient’s nutritional status and other health
needs.

Supplement 1 to Attachment 3.1-A of the District’s Medicaid State plan authorizes
personal care services, prescribed in accordance with a plan of care and furnished by a
qualified person under supervision of a registered nurse. The District’s section 1915(c)
waiver, Home and Community-Based Waiver for the Elderly and Individuals With
Physical Disabilities (waiver) allows a more intensive level of personal care services for
beneficiaries eligible for nursing home care.

Federal Requirements Related to Personal Care Services

The State agency must comply with certain Federal requirements in determining and
redetermining whether beneficiaries are eligible for personal care services. Pursuant to section
1905(a)(24) of the Act and implementing Federal regulations (42 CFR § 440.167), personal care
services must be (1) authorized for the individual by a physician in accordance with a plan of
treatment or (at the option of the State) otherwise authorized for the individual in accordance
with a service plan approved by the State; (2) provided by an individual who is qualified to
provide such services and who is not a legally responsible family member; and (3) furnished in a
home or, at the State’s option, in another location.




                                                1
State Plan Requirements Related to Personal Care Services

Pursuant to the State plan and District Municipal Regulations (DCMR), a personal care aide
(PCA), under the supervision of a registered nurse, provides beneficiaries’ personal care
services. 1 Qualified family members, who are not the beneficiary’s spouse, parent, or other
legally responsible relative, may also provide personal care services. Effective September 2003,
the State agency’s reimbursement fee schedule set personal care services at $16.30 per hour.
During our audit period, the State plan limited reimbursement for personal care services to no
more than 8 hours per day and 1,040 hours during any 12-month period. These limits could be
exceeded if prior authorization was given by the State agency. 2

District regulations (29 DCMR § 5007.8) require providers to maintain records of initial and
annual assessments; plans of care and recertifications of plans of care; description and dates of
services rendered, including the name of the PCA performing the services; supervisory visits of
the registered nurse, including signed and dated clinical progress notes; discharge summaries;
and authorizations for extending the period of service.

The District’s Home and Community-Based Waiver for the Elderly and
Individuals With Physical Disabilities

Section 1915(c) of the Act permits States to seek a waiver from its State plan to furnish an array
of services that assist Medicaid beneficiaries to live in the community and avoid
institutionalization. Waiver costs must be “cost neutral,” meaning they may not exceed the cost
of institutionalization (section 1915(c)(2)(D) of the Act). The District’s section 1915(c) waiver
authorizes nursing-home-level services, including case management, personal care, and respite
care, delivered in the home or in an assisted living facility in lieu of a nursing home. The waiver
allows up to 16 hours of service per day with no limit on total cumulative services for approved
beneficiaries.

District regulations set forth the requirements for personal care waiver services (29 DCMR
chapter 42, “Home and Community-Based Waiver Services for Persons Who Are Elderly and
Individuals With Physical Disabilities”). Services under the waiver must be approved by the
State agency. District regulations state that “[e]ach provider of waiver services shall receive
approval from the case manager prior to initiating, changing, adding, or terminating any
approved waiver service” (29 DCMR § 4203). The case manager must submit the necessary
documentation, including a comprehensive assessment and a plan of care, to the State agency’s
representative, who disapproves services or preauthorizes approved services (waiver, Appendix
D-2: 3). District regulations implementing the waiver require, among other things, that the case
manager submit to the State agency the necessary documentation for review and approval of
waiver services (29 DCMR § 4216.8).


1
 Supplement 1 to Attachment 3.1A, sections 24.F.3 and 4, page 29, and 29 DCMR §§ 5002.5(c), 5003.1, and
5004.3.
2
    Supplement 1 to Attachment 3.1A, sections 24.F.1, page 29.


                                                          2
Tri-State Home Health and Equipment Services, Inc.

Tri-State Home Health and Equipment Services, Inc. (Tri-State), was founded in 1992 as a
residential service agency in Maryland. Tri-State provides personal care services, home health
services, and medical equipment rentals in the District and four Maryland counties. During our
audit period, Tri-State was the District’s largest provider of personal care services. For each
beneficiary receiving services from PCAs, Tri-State maintained paper files of required records,
including timesheets identifying hours and services performed.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency:

   •    paid Tri-State only for personal care service claims that complied with the State plan or
        waiver requirements for allowable hours of service and only for services actually
        provided and

   •    ensured that PCAs met District qualification requirements.

Scope

Our audit period covered July 1, 2006, through September 30, 2007. We reviewed a database of
138,642 claims submitted by Tri-State for personal care services provided to 518 Medicaid
beneficiaries, for which the State agency made payments totaling $16,538,233 ($11,576,763
Federal share). We did not determine the validity of the plans of care or the accuracy of the
timesheets documenting the services provided by the PCAs.

During our audit, we did not review the overall internal control structure of the District or the
Medicaid program. Rather, we limited our internal control review to the controls related to the
objective of our audit.

We conducted fieldwork at the State agency and Tri-State’s office in the District. Our fieldwork
also included visits to residences of 49 recipients of personal care services.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal and State laws, regulations, and the State plan;

   •    held discussions with State agency officials and reviewed applicable policies and
        procedures to gain an understanding of the personal care services program;



                                                 3
    •    reconciled a database of paid claims for personal care services to amounts claimed by the
         State agency on Form CMS-64, Quarterly Medicaid Statement of Expenditures for the
         Medical Assistance Program;

    •    reviewed a State agency database containing a record of institutional services provided to
         those of the 518 Medicaid beneficiaries who received the services from July 1, 2006,
         through September 30, 2007;

    •    compared the database of personal care services with the database of institutional services
         to identify duplicate dates of service;

    •    reviewed hospital admission and discharge documentation to confirm dates for
         institutional services;

    •    reviewed Tri-State’s client case records for each of the 518 Medicaid beneficiaries to
         determine whether the State agency authorized services consistent with the State plan
         requirements;

    •    selected, from the database of Tri-State’s 138,642 claims, a simple random sample of 100
         claims for personal care services provided to 86 beneficiaries and:

             o visited and interviewed 49 beneficiaries associated with the claims or their family
               members, if available, 3 to determine whether concerns existed regarding any PCA
               who had provided care to them or regarding Tri-State in general and

             o reviewed supporting documentation to determine whether PCAs met the
               minimum standard qualification requirements to provide the necessary level of
               care under the State plan; and

    •    discussed our findings with Tri-State but did not solicit written comments.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                               FINDINGS AND RECOMMENDATIONS

The State agency paid Tri-State for personal care services that did not always comply with the
State plan or waiver requirements for allowable hours of service and for personal care services
that were not always provided. Payments for services to 326 beneficiaries were sufficiently

3
  Twenty-three beneficiaries did not respond to phone contacts or home visits, five beneficiaries were deceased,
three beneficiaries were hospital inpatients, three beneficiaries no longer resided at the address of record, two
beneficiaries refused to share any of their concerns, and one beneficiary was located but was incoherent.

                                                          4
documented, including services for all the 155 beneficiaries for whom Tri-State requested and
received approval under the State agency’s waiver. However, the State agency made payments,
totaling $1,595,422 ($1,116,796 Federal share), for unallowable services to 148 beneficiaries:

      •    $1,588,315 ($1,111,821 Federal share) on behalf of 134 beneficiaries for whom Tri-State
           claimed hours of service in excess of the State plan limit but did not provide
           documentation that it requested or received the required authorization for the extended
           service and

      •    $7,107 ($4,975 Federal share) on behalf of 14 beneficiaries for whom Tri-State claimed
           hours of service that were not provided.

We set aside for CMS’s adjudication $1,153,897 ($807,728 Federal share) paid on behalf of an
additional 44 beneficiaries for whom Tri-State claimed hours of service under the waiver.
Tri-State documented that it had submitted requests for waiver services for these beneficiaries
but did not have evidence to support that it had received preauthorization for services under the
waiver.

We also determined that the State agency did not ensure that all Tri-State’s PCAs met the
District’s qualification requirements. Of the 110 PCAs who provided services to the 86
beneficiaries we reviewed for quality of care, 13 did not meet one or more the of the District’s
qualification requirements. 4

These errors occurred because the State agency lacked sufficient controls to identify and review
claims that exceeded authorized limits. Tri-State also lacked sufficient controls to ensure that it
obtained and documented receipt of State agency authorizations needed to justify Tri-State’s
claims.

FEDERAL AND STATE AGENCY DOCUMENTATION REQUIREMENTS

Section 1902(a)(27) of the Act requires that providers enter into agreements with the State
agency to provide services under the State plan. Providers must agree “(A) to keep such records
as are necessary fully to disclose the extent of the services provided to individuals receiving
assistance under the State plan, and (B) to furnish the State agency or the Secretary with such
information, regarding any payments claimed by such person or institution for providing services
under the State plan, as the State agency or the Secretary may from time to time request ....”
Section 2497.1 of the State Medicaid Manual, CMS Pub. No. 45, provides for Federal financial
participation for those claims with “adequate supporting documentation in readily reviewable
form.”

District regulations require that each patient’s record shall include, among other documents,
“[d]escription and dates of services rendered, including the name of the personal care aide
performing the services” and “[e]xtended authorizations for services” (29 DCMR § 5007.8).


4
    We questioned the payments for most of the services provided by these PCAs on the basis of the hours claimed.

                                                          5
Subsequent to our fieldwork, the State agency issued a reminder to providers and also revised its
billing controls. 5

District waiver regulations require that providers must maintain comprehensive
beneficiary records for 6 years (29 DCMR § 4205.3). The records must contain
documentation of the approved plan of care and preauthorizations for services, as well as
“any other records necessary to demonstrate compliance with all rules, regulations,
requirements, guidelines, and standards for the implementation and administration of this
waiver” (29 DCMR § 4205.4).

PRIOR AUTHORIZATION NOT DOCUMENTED

The District’s State plan limited PCA services to a maximum of 8 hours per day, up to 1,040
hours in any 12-month period. 6 However, the State agency may provide prior authorization for
services in excess of State plan limits.

The State agency paid $1,588,315 ($1,111,821 Federal share) on behalf of 134 beneficiaries for
whom Tri-State claimed hours of service in excess of the State plan limit without documentation
that Tri-State had requested or received the required prior authorization. For one beneficiary,
Tri-State had no documentation that any services had been provided. For the remaining 133
beneficiaries, Tri-State provided us with the document it used to track service hours and identify
when a beneficiary reached the State plan limit of 1,040 hours during any 12-month period.
However, Tri-State continued to claim hours of service after the State plan limit had been
exceeded. Tri-State provided no documentation to indicate that it requested or that the State
agency granted authorization for the excess services. For example, in one 12-month period, a
beneficiary received 3,390 hours of service instead of the allowable 1,040 hours of service.
Although the beneficiary’s plan of care required hours of service in excess of the State plan
limits, Tri-State neither requested nor received authorization for the extended 2,350 hours of
services, and therefore, the State agency overpaid $38,305 ($26,814 Federal share).

SERVICES NOT PERFORMED

The State plan allows services furnished by qualified persons under the supervision of a
registered nurse. 7 Providers must maintain records as required in 29 DCMR § 5007.8. Services
that are not furnished would not be covered under the State plan. Federal and District
regulations (42 CFR § 440.167(a) and 29 DCMR § 5004.8) prohibit personal care services “in a
hospital, nursing facility, intermediate care facility for the mentally retarded or institution for
mental disease ....”

5
    Billing and Prior Authorization of Personal Care Services, DHCF Transmittal No. 10-01, January 6, 2010.
6
  Supplement 1 to Attachment 3.1A, section 24.F.1, page 29, as implemented in 29 DCMR § 5009.2. To simplify
recordkeeping, DHCF Transmittal No. 10-01 (Jan. 6, 2010), modified the 12-month period for State plan limits to
the calendar year.
7
    Supplement 1 to Attachment 3.1A, section 24.F.1, page 29.


                                                          6
The State agency paid $7,107 ($4,975 Federal share) on behalf of 14 beneficiaries for whom
Tri-State claimed personal care services that were not provided. The services were scheduled
but not provided because the beneficiaries were receiving inpatient Medicaid services at acute-
care hospitals during the claimed period. For example, one beneficiary was hospitalized from
July 9 through August 15, 2006. Tri-State claimed 8 hours of personal care services per day
from July 9 through August 4, 2006 (21 of the 38 hospital days). We allowed claims for
personal care services on the admission date but questioned the remaining payment of $2,608
($1,826 Federal share) for the other 20 days.

APPROVAL OF WAIVER SERVICES NOT DOCUMENTED

Services under the waiver must be approved by the State agency. District regulations state that
“[e]ach provider of waiver services shall receive approval from the case manager prior to
initiating, changing, adding, or terminating any approved waiver service” (29 DCMR § 4203).
The case manager must submit the necessary documentation, including a comprehensive
assessment and a plan of care, to the State agency’s representative, who disapproves services or
preauthorizes approved services (waiver, Appendix D-2: 3). District regulations implementing
the waiver require, among other things, that the case manager submit to the State agency the
necessary documentation for review and approval of waiver services (29 DCMR § 4216.8). The
case manager must use the uniform documentation forms as provided and directed by the State
agency (29 DCMR § 4218.2).

We set aside for CMS’s adjudication $1,153,897 ($807,728 Federal share) paid on behalf of 44
beneficiaries for whom the State agency paid for hours of services that Tri-State claimed under
the waiver. Tri-State documented that it had properly submitted requests for waiver services for
these beneficiaries and that it had documented that the beneficiaries were eligible for nursing
home care. However, neither Tri-State nor the State agency provided evidence to support that
the beneficiary had received the required preauthorization for waiver services. 8

CAUSE OF UNALLOWABLE CLAIMS

These errors occurred because the State agency lacked sufficient controls to identify and review
claims that exceeded authorized limits. Also, State agency officials said that the State agency
had a backlog of requests for waiver services. Likewise, Tri-State lacked sufficient controls to
ensure that it obtained and documented receipt of State agency authorizations needed to justify
the personal care services claims.

PERSONAL CARE AIDES LACKED QUALIFICATIONS

District regulations (29 DCMR §§ 4221.1 and 5003.2) establish qualifications that each PCA
must meet, including training, cardiopulmonary resuscitation certification, and knowledge of
emergency and infection control procedures; freedom from communicable disease; and


8
    Tri-State received State agency approval for Waiver services for 155 beneficiaries.


                                                            7
documentation of acceptance or rejection of the hepatitis vaccine. PCAs must also pass a
criminal background check pursuant to 29 DCMR §§ 4221.1(j) and 5003.2(n).

We reviewed personnel files for 110 PCAs associated with the 86 beneficiaries that we reviewed
for quality of care and identified shortcomings in the qualifications of 13 PCAs. The table below
identifies the number of PCAs for whom each shortcoming applied. The total exceeds 13
because we identified multiple deficiencies for four PCAs.

         Qualification Shortcomings Identified in Personal Care Aides Personnel Files

                                                                                               Number of
                          Qualification Shortcoming                                              PCAs
    Freedom from communicable disease not documented                                               4
    Hepatitis vaccine not documented 9                                                             4
    Required 75 hours of classroom training not documented                                         3
    No current cardiopulmonary resuscitation certification                                         3
    Required 12 hours of annual continuing education not documented                                2
    Out-of-date criminal background check                                                          1

Because the State agency did not sufficiently monitor Tri-State’s compliance with qualification
requirements, PCAs who did not meet District qualification requirements were permitted to
provide care to beneficiaries. As a result, quality of care to beneficiaries may have been
compromised.

RECOMMENDATIONS

We recommend that the State agency:

     •   refund $1,111,821 (Federal share) for claims in excess of State plan limits paid without
         documentation of the required authorization,

     •   refund $4,975 (Federal share) for claims paid for services that were not provided,

     •   work with CMS to determine the allowability of $807,728 (Federal share) paid for waiver
         claims for which preauthorization of services was not adequately supported,

     •   implement prepayment controls to monitor personal care services claims for compliance
         with Federal and District requirements, and

     •   provide more effective monitoring of PCA compliance with qualification requirements.



9
 Tri-State had no documentation to support that the four PCAs had received, or been offered and declined, the
hepatitis vaccine.

                                                         8
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and described the action it has taken, or plans to take, to address them. The State agency said
that it had implemented prepayment controls and PCA monitoring procedures. As part of its
PCA monitoring, the State agency also requested documentation of our interviews with Tri-State
clients.

The State agency’s comments are presented in their entirety as the Appendix.

            OTHER MATTERS: BENEFICIARY-IDENTIFIED PROBLEMS
                     WITH PERSONAL CARE SERVICES

We randomly sampled 100 claims that Tri-State submitted for personal care services to 86
beneficiaries. We then interviewed 49 of the 86 beneficiaries or their family members to
determine whether quality-of-care issues existed with the PCA in particular or with Tri-State in
general. We did not interview the remaining 37 sampled beneficiaries because they did not
respond to our request or we could not locate them. Of the 49 beneficiaries interviewed, 23
identified problems with the personal care service benefit. For example, we interviewed
beneficiaries and their families who described PCAs who arrived late or failed to show up for
duty, did not follow the plan of care, or neglected the beneficiary in a way that resulted in
physical harm. We were unable to determine if any of the identified problems occurred on the
specific service date drawn in our sample. For some beneficiaries, we were able to determine
that the problems identified occurred during our audit period. However, not all of the identified
problems occurred during our audit period. We are providing the State agency with detailed
information on the identified problems.




                                                9
APPENDIX
                                                                                                 Page 1 of 3
                             APPENDIX: STATE AGENCY COMMENTS

                        GOVERNMENT OF THE DISTRICT OF COLUMBIA 

                              Department of Health Care Finance 





Office oftbe Director


September 22, 2010
                                                --
                                                ***

Steven Virbitsky
Regional Inspector General for Audit Services
Office of the Inspector General
US Department of Health and Human. Services
Office of Audit services, Region ill
Public Ledger Building, Suite 316
150 S. Independence Mall west
Philadelphia, PA 19106-3499

Dear Mr. Virbitsky:

This letter responds to the fmdings contained in your Office's draft report, Review o/Personal
Care Services Provided by Tri-State Home Health and Equipment Services, Inc., in the District
o/Columbia (report number A-03-08-00207). This report sets forth findings of your Office's
review of claims submitted by Tri-State Home Health and Equipment Services, Inc., for the
period July 1,2006 through September 30, 2007. This review found that:

         1. The State agency paid Tri-State for personal care services that did not always comply
         with the State plan or waiver requirements and for personal care services that were not
         always provided. These payments totaled $1,595,422 ($1,116,796 Federal share),
         including:

                    $1,588,315 ($1,111,821 Federal share) on behalf of 134 beneficiaries for whom
                    Tri -State claimed hours of service in excess of the State plan limit but did not
                    provide documentation that it requested or received the required authorization for
                    the extended service and $7,107 ($4,975 Federal share) on behalf of 14
                    beneficiaries for whom Tri-State claimed hours of service that were not provided.

         2. In addition, your audit questioned $1,153,897 ($807,728 Federal share) paid on behalf
         of an additional 44 beneficiaries for whom Tri-State claimed hours of service under the
         District's section 1915(c) Home and Community-Based Waiver for the Elderly and
         Individuals With Physical Disabilities waiver.

         3. The audit also found that some Tri-State Personal Care Aides (PCAs) did not meet the
         District's qualifications requirements.




           825 North Capitol Street, N.E., Washington, D.C. 20002 (202) 442-5988 Fax (202) 442-4790
                                                                                              Page 2 of 3


Steven Virbitsky
Office's draft report (report number A-03-08-00207)
Page2

The audit concluded that these errors occurred because the State agency lacked sufficient controls
to identifY and review claims that exceeded authorized limits and that Tri-State also lacked
sufficient controls to ensure that it obtained and documented receipt of State agency
authorizations needed to justifY Tri-State's claims. Your Office has recommended that the
Department of Health Care Finance:


        1. Refund $1 ,111 ,821 (Federal share) for claims in excess of State plan limits paid
        without documentation of the required authorization,

        2. Refund $4,975 (Federal share) for claims paid for services that were not provided,

        3. work with CMS to detennine the allowability of $807,728 (Federal share) paid for
        waiver claims for which preauthorization of services was not adequately supported,

        4. Implement prepayment controls to monitor personal care services claims for
        compliance with Federal and District requirements, and

        5. Provide more effective monitoring of PCA compliance with qualification requirements.

We concur with each of the above recommendations and will refund the amounts specified in
your first two recommendations. We will also work with CMS to determine the allowability of
$807,728 (Federal share) paid for waiver claims for which preauthorization of services was not
adequately supported.

With respect to recommendations four and five, we have already undertaken a number of actions
subsequent to the period covered by this review that help to more effectively monitor personal
care services claims for compliance with Federal and District requirement and provide more
effective monitoring of PCA compliance with qualification requirements. We also have
additional actions underway. These are detailed below.

   DHCF actions to more effectively monitor personal care services claims for compliance
   with Federal and District requirement:

   • 	 In July 2010, DHCF transferred the PCA prior authorization process to the District' s
       Quality Improvement Organization (QIO), Delmarva Foundation, to ensure more
       consistent monitoring.

   • 	 Additionally, in 2011, the District will implement a hard cap of 520 hours per year of
       PCA and will prior authorize from the first request for services.

   • 	 Finally, DHCF is drafting more rigorous regulations for PCA services that contain a
       number of safeguards that will enable more effective abuse prevention and monitoring.



         825 North Capitol Street, N.E., Washington, D.C. 20002 (202) 442-5988 Fax (202) 442-4790
                                                                                              Page 3 of 3


Steven Virhitsky
Office's draft report (report number A-03-08-00207)
Page 3

    DHCF actions to provide more effective monitoring ofPC~ compliance with
    qualification requirements:

    During the time period of the OIG review, the District of ColUmbia did not have licensure for
    home health agencies or personnel requirements for home care agencies. In 2009, the District
    implemented licensure requirements for home health agencies (DCMR Title 22, Chapter 31).

    Compliance monitoring is undertaken by the District's Health Regulations and Licensing
    Administration. Additionally, in DCMR Title 22, Chapter 39, Section 3907, the District now
    sets forth requirements for home care agency personnel including credentialing and training.

   In addition, your report states that it detected other beneficiary-identified problems through
   interviews with beneficiaries or their family members. The report states that your Office will
   provide us with detailed information on the identified problems. We are eager to receive this
   information.

Please contact Ms. Ann Page, Director of the DHCF's Health Care Accountability 

Administration if you have any questions about this report. She can be reached at 202-478-5792 

or ann.page@dc.gov. 




qY,
JulIe Hudman,
Director
Department of Health Care Finance




         825 North Capitol Street, N.E., Washington, D.C. 20002 (202) 442-5988 Fax (202) 442-4790
